E
Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214
l -800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-541
MICHAEL LAMBERT, an individual,
Petitioner,
V.

ESTATE OF KEVIN BROWN, by its
successor-in-interest Rebecca Brown;
and REBECCA BROWN,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of December, 2019, send
out from Omaha, NE I package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:
SEE ATTACHED

To be filed for:
EUGENE IREDALE
Counsel of Record
JULIA YOO
GRACE JUN
IREDALE AND YOO, APC
105 West F St., Fourth Floor
San Diego, CA 9210 I
Tel: (619) 233-1525
egiredale@iredalelaw.com
Counsel for Respondents

Subscribed and sworn to before me this 26th day ofDecember, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39096

Catherine Ann Richardson
San Diego City Attorney's Office
1200 Third Avenue, Suite 1100
San Diego, CA 92101
crichardson@sandiego.gov
Tel: (619) 533-4713
Counsel of Record for Petitioner Michael Lambert

